                                   OFFICE OF INVESTIGATIONS

                          CLOSEOUT MEMORANDUM




There was no closeout written at the time this case was closed. The following information was
extracted from the file in conformance with standard closeout documents.

Our office was informed that the subject' was alleged to have pocketed money meant for an NSF-
supported workshop. A participant in the workshop felt that the quality of the workshop was poor.
This case was referred to the Office of Audit. A CPA firm found a lack of records but the program
was produced as proposed. The CPA firm recommended administrative restrictions for future
funding and NSF agreed.

Accordingly this case is closed.
